                                        National Science Foundation
                                            420 1 Wilson Boulevard
                                          Arlington, Virginia 22230

Office of Inspector General



MEMORANDUM

DATE:                  SEP 2 7 20C7
TO:


FROM:
                   *
                   Mary F. Santonastasso, Director
                   Division of Institution and Award Support
                               f   l
                   Deborah H. Cureton
                                        .    h
                   Associate Inspector General for Audit

SLTBJECT: NSF OIG Audit Report No. OIG-07-1-018,
          Post Award Accounting System Audit of Bermuda Institute of Ocean Sciences

In response to NSFYsrequest for audit support, we contracted with the Defense Contract Audit
Agency (DCAA), Tampa Bay Branch Office, to perform two audits of the Bermuda Institute of
Ocean sciences1 (BIOS). DCAA has completed the first of those audits. The attached DCAA
audit report, dated May 24,2007, was a review of the adequacy of BIOS' accounting system.
Upon completion, the remaining audit report will be issued that will report results of the
auditor's review of claimed costs and other matters.

Under four NSF awards, BIOS provided equipment and ship operations for two vessels, the
WeatherbirdII, which was subsequently sold; and the Atlantic Explorer, a newly-acquired
research vessel. BIOS also performed the research award Times Series Studies in the Atlantic
Ocean.

The objectives of the accounting system audit were to:

           Determine whether BIOS' accounting system is adequate for accumulating costs under
           government contracts and awards in compliance with award terms and conditions and
           federal requirements, and
           Determine whether the billing procedures are adequate for the preparation of cost
           reimbursement claims, i.e., interim public vouchers and.progresspayments.

The audit was performed in accordance with Generally Accepted Government Auditing
Standards. The DCAA audit report and BIOS7response are attached to this memorandum.




1
    Bermuda Institute of Ocean Sciences is the former Bermuda Biological Station for Research or BBSR.
                                                           NSF OIG Audit Report No. OIG07-1-018




Summary of the Results of the Audit

BIOS is required to adjust its accounting records at year-end to reflect actual indirect costs and
the application of final negotiated indirect rates for each of its federally funded contracts and
awards to comply with OMB Circular A-122, Attachment A, Paragraph E.2,f.

The DCAA auditors expressed an opinion on BIOS' accounting system and found that it was
inadequate in part for accumulating and billing costs under its Government contracts and awards.
BIOS does not routinely adjust its accounting records to reflect actual indirect costs on its
federally funded contracts and awards.

Specifically, BIOS did not use the NSF negotiated final rates or the institution's actual indirect
rates to close its accounting records on its NSF or other federal awards. Instead, BIOS uses rates
submitted in its award proposal budgets as a basis to bill indirect costs on its federal awards.

BIOS explained that the reason it charges budgeted rates rather than actual indirect rates on its
federal awards is because this practice is required by NSF's Grant Policy Manual. Since NSF is
BIOS' cognizant oversight agency, BIOS applied this same practice on all its federal awards.

Therefore, while BIOS is accurately billing NSF on its awards, BIOS is potentially over or under
billing its other federal awards for indirect expenses. Further, even on its NSF awards, BIOS
should adjust its accounting records at year-end to reflect actual indirect rates and record the
difference between actual and budgeted indirect costs as an unallowable cost in order to properly
reflect the shortfall that BIOS is experiencing in the recovery of its indirect costs. When BIOS'
records do not reflect its actual indirect costs, the true total cost of the research is not captured or
recovered from the federal agency, where allowed. In light of the institution's under-recovery of
indirect costs and the additional debt that BIOS has taken on in recent years to cover acquisition
and building programs, OIG suggests that NSF monitor the financial statements of BIOS closely
in the future.

We are providing a copy of this memorandum to the Geosciences Directorate1Division of Ocean
Sciences (GEOIOCE). The responsibility for audit resolution rests with DIAS. Accordingly, we
ask that no action be taken concerning the report's findings without first consulting DIAS at
(703) 292-8230.

OIG Oversight of Audit

To fulfill our responsibilities under Generally Accepted Government Auditing Standards, the
Office of Inspector General:

       Reviewed DCAA's approach and planning of the audit;
       Monitored the progress of the audit at key points;
                                                      NSF OIG Audit Report No. OIG07-1-018


       Coordinated periodic meetings with DCAA and OIG management to discuss audit
       progress, findings and recommendations;
       Reviewed the audit report prepared by DCAA to ensure compliance with Generally
       Accepted Government Auditing Standards and Office of Management and Budget
       Circulars; and
       Coordinated issuance of the audit report.

DCAA is responsible for the attached auditor's report on BIOS University and the conclusions
expressed in the report. The NSF OIG does not express any opinion on BIOS's accounting
system or the conclusions presented in DCAA7saudit report.

We thank you and your staff for the assistance extended to us during the audit. If you have any
questions about this 'report, please contact Shenye McGregor at (703) 292-5003 or Jannifer
Jenkins at (703) 292-4996.


Attachment: DCAA Audit Report No. 1271-2007F17740001,Bermuda Institute of Ocean
            Sciences, Inc. Report on Post Award Accounting System, May 24,2007


cc:    Karen Tiplady, Director, Division of Grants and Agreements
       Julie D. Moms, Division Director, GEOIOCE
       Linda Goad, GEOIOCE
               DEFENSE CONTRACT AUDIT AGENCY 

               AUDIT REPORT NO. 1271-2007Fl7740001 


                                                                            May 24,2007

PREPARED FOR: Office of Inspector General
              ATTN: Ms. Deborah H. Cureton, Associate Inspector General for Audit
              National Science Foundation
              4201 Wilson Boulevard
              Arlington, Virginia 22230

PREPARED BY:       DCAA Tampa Bay Branch Office
                   10200 49th Street North, Suite 201
                   Cleanvater, FL 33762-5030
                       Telephone No.          (727) 299- 1 100
                       FAX NO.                (727) 299-1 135
                       E-mail ' ~ d d r e s s dcaa-fao 127 1 @dcaa.mil

SUBJECT:           Report on Post Award Accounting System Audit

REFERENCES:        Relevant Dates: See Page 9
                   DCAA Chron No.: 7-901 2

CONTRACTOR:        Bermuda Institute of Ocean Sciences, Inc.
                   Formerly Bermuda Biological Station for Research, Inc.
                   17 Biological Lane, Ferry Reach
                   St. George's GE 01, Bermuda

REPORT RELEASE RESTRICTIONS: See Page 10


CONTENTS: 	        Subject of Audit
                   Executive Summary
                   Scope of Audit
                   Results of Audit
                   Contractor Organization and Systems
                   DCAA Personnel and Report Authorization
                   Audit Report Distribution and Restrictions
                   Appendix
Audit Report No. 1271-2007F17740001

                                     SUBJECT OF AUDIT

       As you requested on August 11, 2006, authorization to proceed dated September 1, 2006,
received on October 27, 2006, we examined Bermuda Institute of Ocean Sciences, Inc. (BIOS)
formerly Bermuda Biological Station for Research, Inc. (BBSR)'s accounting system as of
April 10, 2007 to determine whether it is adequate for accumulating costs under Government
contracts and whether the billing procedures are adequate for the preparation of cost
reimbursement claims, i.e., interim public vouchers and progress payments.

       BIOS is responsible for establishing and maintaining an adequate accounting system for
accumulating and billing costs under Government contracts. Our responsibility is to express an
opinion on the adequacy of the accounting system based on our examination.


                                  EXECUTIVE SUMMARY

        In our opinion, the contractor's accounting system is inadequate in part. Our examination
disclosed a significant deficiency in BIOS' accounting system that could result in misstated
costs.

SIGNIFICANT ISSUE:

       complying with the requirements of the Office of Management and Budget (OMB)
       Circular A-122, Attachment A, Paragraph E.2.f; the contractor is not applying its
       finalized indirect rates to actual direct costs consistently, nor is the contractor adjusting
       previously billed costs based on year-end actual indirect rates.

       BIOS did not concur with the significant deficiency cited.


                                      SCOPE OF AUDIT

       We conducted our examination in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the examination to
obtain reasonable assurance about whether the data and records examined are free of material
misstatement. An examination includes:

       obtaining an understanding of internal control for accumulating and billing costs under
       Government contracts;
       examining, on a test basis, evidence supporting the amounts and disclosures in the data
       and records evaluated;
       assessing the accounting principles used and significant estimates made by the
       contractor; and
       evaluating the overall data and records presentation.
Audit Report No. 1271-2007F17740001

       We evaluated the accounting system using the applicable requirements contained in:

       Federal Acquisition Regulation (FAR);
       OMB Circular A-122, Cost Principles for Non-Profit Organizations; and
       NSF Cooperative Agreement Financial & Administrative Terms and Conditions (FATC).

         The contractor claims exemption under 48 CFR 9903.201-1(b)(7) from the practices
required by the Cost Accounting Standards Board rules and regulations because the company's
contracts and subcontracts are executed and performed entirely outside the United States, its
territories, and its possessions.

        Our examination included an evaluation to determine if the accounting system provides
for the following procedures:

       direct and indirect costs are appropriately identified, accumulated, and reported;
       unallowable costs are appropriately identified and segregated;
       indirect costs are allocated equitably and consistently to contracts and other cost
       objectives;
       direct and indirect labor costs are identified to intermediate or final cost objectives by the
       timekeeping system and charged to appropriate cost objectives by the labor distribution
       system;
       indirect billing rates are acceptable to the contracting officer or contract auditor in
       accordance with FAR 42.704;
       cost information for billings is based on currently posted accounting data;
       subcontractor and vendor costs are paid in accordance with subcontract and invoice terms
       and conditions and ordinarily paid prior to the contractor's next payment request to the
       Government; and
       contract billings are reviewed by management to assure compliance with contract terms
       and provisions, e.g., frequency of billings, special withholding provisions, contract
       unallowables, etc.

       Our examination was performed from December 4, 2006 to April 10, 2007.

        We believe that our examination provides a reasonable basis for our opinion. Our
examination did not include tests to determine whether internal control is in operation or
operating effectively. Because of inherent limitations in any internal control, misstatements due
to error or fraud may occur and not be detected. Also, accounting system .internal control is
subject to the risk that the internal control may become inadequate because of changes in
conditions.


                                     RESULTS OF AUDIT

        In our opinion, BIOS' accounting system is inadequate in part for accumulating and
billing costs under Government contracts. Our examination disclosed a significant deficiency in
the design or operation of the accounting system. In our judgment, this deficiency could
                                              2
Audit Report No. 1271-2007F17740001

adversely affect the organization's ability to record, process, summarize, and report costs in a
manner that is consistent with applicable Government contract laws and regulations. This
condition is detailed in the "Statement of Condition and Recommendation" on page 4 and
summarized below:

       The contractor's accounting system is deficient in:

           complying with the requirements of the Office of Management and Budget (OMB)
           Circular A-122, Attachment A, Paragraph E.2.f; the contractor is not applying its
           finalized indirect rates to actual direct costs consistently, nor is the contractor
           adjusting previously billed costs based on year-end actual indirect rates.

        Our examination was limited to determining whether BIOS' accounting system is
adequate for accumulating and billing costs under Government contracts. We did not perform a
comprehensive examination of the contractor's overall accounting system and its related internal
control. Accordingly, we express no opinion on BIOS' system of internal control taken as a
whole.

       We discussed the results of our examination with the contractor's representatives,


of Audit" and "Statement of Condition and Recommendation" to the contractor's representative
at the exit conference, and requested a formal written response to our audit findings for
incorporation into our report.

          The contractor's representatives did not concur with the significant deficiency cited.
BIOS' written response dated May 10, 2007, addresses the significant issue impacting our
opinion. BIOS alleged that by using the proposals' budgets indirect rates they are complying
with the NSF Grant Policy Manual (GPM). However, BIOS is a non-profit organization and
must comply with the all the requirement of the OMB Circular. BIOS is not using the indirect
rates included in their finalized non-profit rates agreement for billing or booking indirect costs.
As a result, the contractor and the Government can not accurately forecast if planned funding for
the awards is adequate. The complete text of the contractor's response appears as an Appendix
included on page 1 1 of this report.
Audit Report No. 1271-2007F17740001



               STATEMENT OF CONDITION AND RECOMMENDATION

Billing, System Deficiencies in Preparation, Application, and Adiustment of Billing Rates

1. 	   Condition:

        The contractor uses indirect rates included in budgets provided to the National Science
Foundation (NSF) during awards negotiations for billings and to calculate booked incurred cost
on cost type awards. We reviewed BIOS' non-profit rate agreement dated October 7, 2005,
which includes finalized indirect rates from fiscal year (FY) 1999 through FY 2004, and
maximum provisional rates for FYs 2005 and 2006. The non-profit rate agreement includes two
indirect rates categories (i) resident science, and (ii) ship operations. During years with finalized
indirect rates, the contractor did not use the agreement's rates for billings to the Government,
monitor awards' ceilings, or total incurred costs. During years with maximum provisional rates,
the contractor did not adjust billed indirect rates to reflect actual year-end allowable indirect
expenses/rates.


                                                         and7
                                                        ursable awards for testing, NSF awards
                                                                            On a test basis, we
                                                        tion Report FCTR) SF-272, for the quarter
ended 	 September 30, 2006, to NSF billings made electr~nicallyvia NSF's ~ a s t ~ a Cash   ne
Request System, and to the BIOS' accounting books and records. We reconciled total booked
costs to NSF cumulative billings. Total booked and billed costs represent actual direct costs
incurred loaded with indirect rates included in the supporting budgets provided to NSF at the
time of awards negotiations. The direct costs were not loaded with the finalized rate agreement
rates or actual year-end allowable indirect rates, as summarized below:

                     Period of                                               Indirect
  Award No.        Performance         Description                        Rate Category       Note
                 3/1/02 - 2/28/05     Weatherbird I1                     Ship Operations        1
                 9/1/03 - 813 1/07    Atlantic Time Series Studies       Resident Science      2,4
                 8/1/04 - 713 1 106   Shipboard Scientific Equipment     N/A                    3
                 3/1/05 - 2/28/07     Atlantic Explorer                  Ship Operations       1,4

       (1) 	   Cumulative billed costs are actual direct costs loaded with indirect rates included
               in yearly budgets submitted to NSF at the time of funding negotiations. Indirect
               rates included in finalized rate non-profit rate agreement were not utilized to
               monitor cumulative billings or booked incuned costs.

       (2) 	   Cumulative billed costs are actual direct costs loaded with indirect rates included
               in initial award bid to NSF.

       (3) 	   In accordance with award terms, we did not identify indirect costs associated with
               this project in NSF billings or booked costs.

                                                  4
Audit Report No. 1271-2007F17740001


       (4) 	   During FYs 2005 and 2006, indirect rates have not been finalized. However, the
               contractor has not updated its billings or booked costs with actual year-end
               allowable indirect expenseslrates.

        We evaluated the cost impact of this deficiency and determined that BIOS has not over
billed the Government since the booked and billed indirect rates are lower than (i) the rates
included in NSF non-profit rate agreement during FY 2002 through FY 2004, and (ii) actual
FY 2005 indirect rates.

2. 	   Recommendation:

        For years with finalized indirect rates, we recommend that the contractor use rates
contained in its non-profit indirect rate agreements and adjust contractual incurred costs and
billings to the Government.' If indirect rates have not been finalized, we recommend that the
contractor adjust the awards' booked costs and cumulative billings in its records with year-end
actual indirect rates less unallowable costs.

        The contractor's system must include procedures to establish indirect billing rates in
accordance with the Office of Management and Budget (OMB) Circular A-122, Attachment A,
Paragraph E.2.f. Specifically, at the end of each fiscal year, the contractor should calculate
actual indirect rates with unallowable costs removed and compare these rates to the rates used for
billings to determine if indirect billed rates should be adjusted. The rates should not exceed the
maximum provisional billing rates. If there is a significant difference, billings should be
adjusted to reflect either the additional amount due the contractor or credit applied to the
Government.

        The contractor could potentially over or under bill indirect expenses each fiscal year, by
not utilizing finalized indirect rates, and not adjusting prior billings with actual allowable
year-end rates (if rates have not been finalized). As a result, the contractor and the Government
cannot accurately forecast if planned funding for the award is adequate.

3. 	   Contractor's Reaction:

       In its response, dated May 10, 2007, included as an Appendix to the report (see Page 1 I),
the contractor disagreed with our results of audit and identified condition. The contractor did not
accept our recommendations with respect to the adjustment of indirect rates as prescribed in the
OMB Circular A-122, Attachment A, Paragraph E.2.f.

        The contractor alleged that they are complying with the OMB Circular, NSF Grant Policy
Manual (GPM) Section 635, and NSF letter dated August 21, 2006 which documents their most
recent negotiations.
Audit Report No. 1271-2007F17740001

4.     Auditor's Response:

        The contractor acknowledged that they are billing and booking indirect rates included in
budgets submitted to NSF, and therefore, not using finalized indirect rates included in their
non-profit indirect rates agreement. Moreover, the contractor acknowledged that they are not
adjusting the booked costs with year-end allowable indirect rates during years that indirect rates
have not been finalized. The contractor is a non-profit organization and must comply with the
requirement of the OMB Circular. Consequently, we reiterate our prior recommendation.

       We recommend performing a follow up review in approximately 90 days to determine if
the contractor has implemented a corrective action to our identified condition.
Audit Report No. 1271-2007F17740001

                     CONTRACTOR ORGANIZATION AND SYSTEMS

1. Organization:

        The Bermuda Institute of Ocean Sciences, Inc. (BIOS) formerly Bermuda Biological
Station for Research, Inc. (BBSR) was founded in 1903 by scientists as a station for research in
biology and zoology. BBSR was incorporated in New York in 1926 as a U.S. not-for-profit
organization and by 1932 its present location was opened in Ferry Reach, St. George's, Bermuda.
BBSR changed its name to Bermuda Institute of Ocean Sciences, Inc. (BIOS) on April 4, 2007 to
reflect the change of the research station into an institute focused on the study of marine and
atmospheric systems. BIOS' sales for its fiscal year ending December 31, 2006 were
approximately $13.3 million, of which approximately 36 percent were from the Federal
Government.

2. Accounting System:

        In our opinion, BIOS' accounting system is inadequate in part for accumulating and
billing costs under Government contracts because the contractor is not applying indirect rates
consistently, nor adjusting previously billed cost based on year-end actual indirect
expenseslrates.

        BIOS' accounting period is from January I st to December 3 1st. BIOS maintains an
accounting system on the accrual basis in accordance with generally accepted accounting
principles. BIOS' accounting system is posted on a current basis. Appropriate adjusting entries
are made at the end of each month and at year end. BIOS' prepares financial statements on an
annual basis. The annual financial statements are audited by O'Connor Davies Munns &
Dobbins, LLP.

        BIOS maintains a job cost accounting system which is fully integrated in the overall
accounting system, wherein grants are assigned individual project numbers and direct costs are
identified and charged to those numbers. Indirect costs are identified and accumulated under
individual departments, which in turn are identified to the various indirect cost pools. Indirect
expenses are grouped in indirect pools. The following schedule describes BIOS indirect cost
pools and related allocation bases, and the type of effort normally charged direct and indirect:

                            Indirect Cost Pools and Allocation Bases

   Indirect Cost Pool 	                               Allocation Base

Resident Science 	         Total direct costs excluding capital expenditures in excess of $10,000
                           each, individual subcontract costs in excess of $25,000 and
                           participant support costs.

Ship Operations 	          Total direct costs excluding dry dock overhauls and participant
                           support costs.
Audit Report No. 1271-2007F17740001

                                      DCAA PERSONNEL

Primary contacts regarding this audit:                                      Telephone No.

         Jannette M. Reyes, Auditor                                         (787) 707-2903
         Marsha Keiter, Technical Specialist                                (727) 299- 1 118
         Mary Ann Yenchus, Supervisory Auditor                          (954) 356-7337 ext. 2 18

Other contacts regarding this audit report:

         Gary R. Ricketts, Branch Manager
         Marc Parvin, Sr. Financial Liaison Advisor

                                                                               FAX No.
         Tampa Bay Branch Office                                            (727) 299-1 135
         Marc Parvin, Sr. Financial Liaison Advisor                     '   (703) 767-2279

                                                                            E-mail Address
         Tampa Bay Branch Office                                        dcaa-fao1271@dcaa.mil

General information on audit matters is available at http://www.dcaa.mil.


                                      RELEVANT DATES

Request for Audit: 	 Office of Inspector General, National Science Foundation (NSF),
                     Dated August 1 1,2006


AUDIT REPORT AUTHORIZED BY:


                                                    Is/
                                                    Gary R. Ricketts
                                                    Branch Manager
                                                    DCAA Tampa Bay Branch Office
Audit Report No. 1271-2007F17740001

                AUDIT REPORT DISTRIBUTION AND REST.RICTIONS

DISTRIBUTION                                              E-mail Address

National Science Foundation
ATTN: Deborah H. Cureton
Associate Inspector General for Audit
4201 Wilson Boulevard
Arlington, VA 22230

National Science Foundation
ATTN: Sherrye McGregor
Attorney Advisor
4201 Wilson Boulevard
Arlington, VA 22230

Bennuda Biological Station for Research, Inc.        (Copy furnished thru ACO)
17 Biological Lane, Ferry Reach
St. George's GE 01, Bermuda

Defense Contract Audit Agency                   DCAA-SRFLA-NONDOD-Army-team1@dcaa.mil
ATTN: OAL - St. Non-DOD FLAlMarc Parvin
8725 John J. Kingman Road, Suite 2135                      Telephone No.
Fort Belvoir, VA 22060-621 9                               (703) 767-2271


RESTRICTIONS 

Audit Report No. 1271 -2007F17740001                                                                                         APPENDIX
                                                                                                                              Page 1 of 2




     BIOS
     0ERMUDA INSTITUTE OF OCEAN SCIENCES 	

                                                                                                --
                                                                                                Fern, Rsach
                                                                                                Sl. i e o r g s b GE 01, Bermuda
                                                                                                www.blgs   ebv


                                                                                                              May 10,2007

                                                                                                            VIA FACSIMILE

         Mary Ann Yenchus, Supervisory Auditor
         Tampa Bay Branch Office          - Eastern Region
         Defense contract audit Agency 

                 -
         10200 49"' Street North, Suite 20.1 

         Clearwater, Florida 33762-5030 


         Dear Ms. Yenchus:

         DlOSis a not-for-profit organization, incorporated in the state of New York in 1426 and
         exempt from income taxes under section SOl(c) (3) of the IRC. As such, we are subject to
         OMB circular A-322 for Cost Princigles (A122). Additionally our cognizant agency is the
         National Science foundation (NSF]. As such, NSF is responsible for negotiating and
         approving indlrect cost rates (ICR) for BIOS. As an integral'part of this responsibility, NSF
          requires its grantees to comply with the NSF Grant Policy Manual (GPM).The GPM
         supplements A122 providing specific guidance to granrees in many areas including Cost
         monitoring. The Draft Results of Audit (Audit) references A122, Attachment A, Paragraph
         E.2.f which states, "Provl~ionaland final rates shall be negotiated where neither 

         predetermined nor fixed rates are appropriate." 


         8105 annually submits to NSF its computation of Indirect Cost Rates (ICR). The NSF letter
         dated August 21, 2006 documents the most recent negotiations. In that letter i s the
         requirement, "Should your organization submit a grant proposal requesting a lower
         indirect cost rate than the approved maximum provisional rate, the lower indirect cost
         rate submitted i n the proposal budget will be the rr~aximumprovisional rate applicable to
         the grant award." This requirement is a reiteration of GPM #635.

        The deficiency noted in the Audlt i s in part paraphrased as BlOS does not comply with
        A122, Attachment A, Paragraph E.2.f. BlOS does submit rates t o NSF annually and has
        done so consistently during the period under audit, To state that we do not comply with
        this paragraph is not accurate.




      BIOS is an ndependcnr US non-proll~marine research and sducalional insri~ulefoundea in 1933. Glfrs are US tax-deductible
Audit Report No. 1271-2007F17740001                                                                    APPENDIX
                                                                                                        Page 2 of 2




            ÿ he deficiency goes on t o say, "the contractor is not applying Its finalized indirect rates to
            actual direct casts consistently". BlOS consistently follows the palicy prescribed by NSF in
            GPM #635 and in the rate letter. It is BlOS policy t o load rhe ICR that is the lesser of the
            provisional rate, the flnal rate, or the grant award rate. This complies with GPM #635;
            therefore, the representation that we do not comply is not accurate.

            The deficiency ends with, "nor ISthe contractor adjusting pfevlously billed costs based on
            year-end actual indlrect rates". This comment i s inappropriate considering the cites
            above in the G P M and the rate letter. Those cites contradlct this'aspect of the audlr
            finding. We camply with the requirements of NSF as stated In the GPM. To find fault
            with our practices rhen means that you find f a u l t with the GPM.
